HHS/OIG, Audit -"Nationwide Audit of State and Local Government Efforts to Record and Monitor Subrecipients'
Use of Public Health Preparedness and Response for Bioterrorism Program Funds,"(A-05-04-00027)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Nationwide Audit of State and Local Government Efforts to Record and Monitor Subrecipients' Use of Public Health Preparedness
and Response for Bioterrorism Program Funds," (A-05-04-00027)
August 5, 2004
Complete
Text of Report is available in PDF format (469 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether awardees: recorded, summarized, and reported bioterrorism program
transactions by focus area in accordance with their cooperative agreements; established procedures to monitor subrecipient
expenditures; and had unobligated fund balances as of August 30, 2003.  We determined that of the 17 audited awardees:  fourteen
recorded, summarized, and reported bioterrorism program funds by focus area; six had developed adequate procedures to monitor
subrecipient expenditures; and fifteen had unobligated balances of Federal bioterrorism funds as of August 30, 2003 totaling
approximately $65 million, or 15 percent of the $428 million awarded.  We recommended that CDC: (1) continue to emphasize
the requirement to account for funds by focus area; (2) identify awardees that have not accounted for their funds in accordance
with the cooperative agreements and ensure that they revise their accounting procedures; (3) provide guidance to awardees
on monitoring subrecipient expenditures and measuring subrecipient performance, including emphasizing the need for awardees
to make site visits to directly review subrecipients’ expenditures and assess subrecipients’ progress in improving
bioterrorism preparedness; and (4) identify the reasons for large unobligated balances and assist the awardees in overcoming
barriers to a more timely use of funds.  In response, the CDC officials agreed with the findings and recommendations.